                                                                                                       May 13, 2014

Helen Clark
Administrator, United Nations Development Programme


Dear Ms. Clark,

During my most recent trip to Afghanistan, I met with officials from several European countries and
representatives from the Combined Security Transition Command-Afghanistan (CSTC-A). These
officials raised concerns about the United Nations Development Programme’s (UNDP) administration
of the Law and Order Trust Fund-Afghanistan (LOTFA).

Specifically, I was told that there may be insufficient accounting and records for a 2.5% deduction
taken by the Ministry of Interior from some Afghan National Police (ANP) employees’ salaries.
Apparently the funds taken by this deduction are transferred into what has been called a
“miscellaneous” or “police cooperative” fund. However, it is my understanding that the Ministry has
not given a satisfactory explanation for how it uses this fund. Additionally, I have reason to believe
there are insufficient oversight and controls for a 5% “pension” or “retirement” deduction also taken
from ANP salaries. These two salary deductions could total more than $200 million of LOTFA funding
over the past 12 years. Finally, it appears that a number of high-ranking officials in the ANP are
currently serving in positions suitable for more junior-level staff. These officials, however, are still
drawing the pay of their higher rank, resulting in LOTFA donors overpaying senior-level staff to fulfill
less-demanding jobs.

SIGAR is currently conducting an audit assessing the reliability, accuracy, and consistency of ANSF
personnel and payroll data. Additionally, I recently sent a letter to the commanding generals of
CSTC-A and the NATO Training Mission-Afghanistan inquiring about evidence of “ghost workers” and
other forms of financial mismanagement in the administration of LOTFA. 1 However, given my recent
discussions in Afghanistan, I fear there may also be larger problems with the administration of
LOTFA.

I understand that the UNDP has undertaken new efforts to improve oversight of the distribution of
LOTFA funds. During a February 28, 2014 meeting between UNDP officials and my staff, the Deputy
Assistant Administrator and Deputy Regional Director of the UNDP mentioned that the UNDP is hiring
new payroll specialists, terminating contracts with suspect vendors, and conducting internal audits of
its own operations. However, I believe that more robust measures are needed in order to fully
understand how donor money is flowing from the trust fund through the Afghan banking system.




1   SIGAR Letter to Major Generals Kevin Wendel, Harold Greene, and Dean Milner (February 19, 2014).
As you are aware, the United States has contributed $1.21 billion to LOTFA since the fund’s
inception. Accordingly, please provide the following information:

        (1) How is UNDP controlling expenditures for the “miscellaneous” and “retirement” funds
            mentioned above? Please provide a detailed list of all purposes for which these funds
            may be used by the Ministry of Interior. Please provide details of actions that UNDP is
            taking to ensure these funds are spent only for legitimate purposes. Please also provide
            a detailed description of the internal controls that govern the spending for these
            accounts;

        (2) What controls does the UNDP have in place to ensure that ANP officers serve in positions
            that require their rank? Please provide any information and records concerning the
            number of generals in the ANP, the number of generals serving in positions that do not
            require a general’s rank, and the number of any other officers in the ANP currently
            serving in a position that is below their rank. Please also detail any efforts taken to
            reconcile rank, pay, and current positions for senior-level ANP officials.

We ask that you respond to these requests for information no later than May 27, 2014. Should you
have any questions regarding this matter, please contact me directly, or have your staff contact Jack
Mitchell, Director of Special Projects at                               or                 .




                                                              Sincerely,



                                                              John F. Sopko
                                                              Special Inspector General
                                                               For Afghanistan Reconstruction


cc:

The Honorable John F. Kerry
Secretary of State

Nicholas Rosellini
Deputy Assistant Administrator and Deputy Regional Director
  United Nations Development Programme

Mark Bowden
Deputy Special Representative of the Secretary-General,
 United Nations Assistance Mission in Afghanistan




SIGAR-14-57-SP Inquiry Letter: UNDP LOTFA Oversight                                             Page 2
